The Office of International Affairs
Internal Operations and Travel
Oversight




                                  September 30, 2012
                                  Report No. 508
The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                                 i
    Should you have any questions regarding this report please do not hesitate to
    contact me. We appreciate the courtesy and cooperation that you and your
    staff extended to our audit staff.

    Attachment

    cc:     Erica Williams, Deputy Chief of Staff, Office of the Chairman
            Luis A. Aguilar, Commissioner
            Troy A. Paredes, Commissioner
            Elisse B. Walter, Commissioner
            Daniel Gallagher, Commissioner
            Elizabeth Jacobs, Deputy Director, Office of International Affairs
            Robert Fisher, Deputy Director, Office of International Affairs
            Jayne Seidman, Chief of Staff, Office of the Chief Operating Officer




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                                 ii
           The Office of International Affairs
       Internal Operations and Travel Oversight

                              Executive Summary
Background. The Office of International Affairs (OIA) “promotes investor
protection and cross-border securities transactions by advancing international
regulatory and enforcement cooperation, promoting the adoption of high
regulatory standards worldwide, and formulating technical assistance programs
to strengthen the regulatory infrastructure in global securities markets.”1

OIA is headed by a Director and two Deputy Directors. Its activities are carried
out by four operating units: Technical Assistance, International Enforcement,
International Regulatory Policy, and Comparative Law and Regulation. Each
operating unit is headed by an Assistant Director and is managed by a Branch
Chief.

OIA also serves as the focal point for the U.S. Securities and Exchange
Commission (SEC or Commission) staff’s official international travel. OIA
reviews SEC staff’s proposed foreign travel that is presented in the Foreign
Travel Memorandum (FTM) and the supporting documents that international
travelers provide to OIA. Subsequently, OIA submits these documents to the
Office of the Chief Operating Officer (OCOO) for final review and approval.
Further, OIA coordinates SEC staff’s needed country clearances with the U.S.
Department of State and foreign governments and determines whether there are
any visa requirements. In addition, OIA provides input to the “International
Travel” section that is located on the “SEC Insider,” the Commission’s internal
website. This site provides foreign travel guidance to Commission staff.

Objectives. The overall objective of OIG’s audit was to assess the effectiveness
and efficiency of OIA’s internal operations and identify areas for improvement to
reduce or eliminate fraud, waste, and abuse. Our specific audit objectives were
to assess whether OIA:

         Has viable policies, procedures, and controls for its program
          activities;
         Effectively tracks and processes requests for technical assistance
          and enforcement assistance in a timely manner;
         Has developed a program that ensures SEC employees’
          international travel is appropriately processed through OIA;
         Adequately communicates SEC’s international travel process and
          related procedures to employees; and

1
    See www.sec.gov.
The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                                iii
       Appropriately conducts and reports its staff’s international travel in
        accordance with applicable Federal regulations and internal policies
        and procedures.

Results. OIA’s operating units have policies, procedures, and controls, and the
office effectively tracks and processes technical and enforcement assistance
requests. However, OIA has not documented its international travel coordination
and review procedures. In addition, our testing of FTMs, the primary review and
approval document for international travel, found that: FTMs were not always
submitted to OIA two weeks prior to the start of travel, as is required by SEC
policy; some FTMs did not have one or more required supporting documents;
some FTMs were approved by the former Executive Director on or after the
traveler’s departure date; and the former Executive Director did not approve a
few FTMs.

While OIA obtains country clearances for SEC international travelers, it maintains
the documents in its file and does not provide them to the traveler.

Further, our review of supporting documentation for two one-day international
trips and a multi-stop, two-day international trip that were taken in 2009 and 2010
by OIA staff found the trips were not sufficiently documented to justify the
benefits derived. The OIA Director and Deputy Director for Policy provided OIG
with additional documentation to justify these trips.

Our review of a sample number of international expense reports found that 61
percent were not submitted by travelers within five working days after the trips’
completion, in accordance with Federal travel regulations and SEC travel
policies. We also found compliance with Federal travel regulations and SEC
travel policies related to business class travel, taxis and airport parking, hotel per
diem, meals and incidental expenses, and the recording of compensatory time
for travel needs improvement. Finally, the “International Travel” section on the
SEC Insider, which international travelers use to identify travel requirements,
contains outdated information that should be updated.

Summary of Recommendations. This report contains 10 recommendations
that were developed to strengthen OIA’s internal operations and to assist OIA
and the OCOO in effectively executing their international travel-related
responsibilities.

Specifically, OIG recommended that OIA develop and implement written
procedures for its travel coordination and review activities. In addition, we
recommended OIA strengthen its travel administrative activities. In this regard,
OIA and OCOO should periodically inform Commission staff regarding the
requirement to prepare FTMs at least two weeks before the travel date and to
provide supporting documents with the FTM to OIA. Further, we recommended


The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                                iv
the FTM is revised to include a justification for approved travel and copies of
approved country clearances are provided to international travelers.

Additionally, we recommended OIA establish procedures to ensure its staff
follows Federal travel regulations and SEC travel policies when: planning
international trips, preparing expense report, and computing and recording
compensatory time for travel. We also recommended OIA ensure its timekeeper
records compensatory time for travel in the pay period the hours are earned.

Finally, OIA and OCOO should review guidance on the SEC Insider related to
international travel processes and procedures and regularly update this
information.

Management’s Response to the Report’s Recommendations. OIG provided
OIA and OCOO with the formal draft report on September 19, 2012. OIA and
OCOO concurred with the recommendations that were addressed to their
respective offices. OIG considers the report’s recommendations resolved.
However, each recommendation will remain open until documentation is provided
to us that supports the recommendation has been fully implemented.

OIA and OCOO responses to each recommendation and OIG’s analysis of the
responses are presented after each recommendation in the body of this report.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                                 v
TABLE OF CONTENTS
Executive Summary ................................................................................................iii

Table of Contents ................................................................................................... vi

Background and Objectives ................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 5

Findings and Recommendations .......................................................................... 7
     Finding 1: OIA’s Travel Coordination and Review Processes Lacked
     Written Procedures. ........................................................................................... 7
                  Recommendation 1 ....................................................................... 9

         Finding 2: OIA’s Travel Administrative Activities Need Strengthening. .............. 9
                      Recommendation 2..................................................................... 12
                      Recommendation 3..................................................................... 13
                      Recommendation 4..................................................................... 13
                      Recommendation 5..................................................................... 13

         Finding 3: The Justification for Taking International Trips Was Not Always
         Properly Documented. ..................................................................................... 14
                      Recommendation 6..................................................................... 15

         Finding 4: OIA’s Staff’s Compliance with Federal Travel Regulations and
         SEC Travel Policies Needs Improvement Regarding International Travel ....... 16
                      Recommendation 7..................................................................... 22
                      Recommendation 8..................................................................... 23
                      Recommendation 9..................................................................... 23

         Finding 5: Some International Travel Information on SEC’s Internal
         Website Is Outdated ......................................................................................... 23
                      Recommendation 10................................................................... 24




The Office of International Affairs Internal Operations and Travel Oversight                September 30, 2012
Report No. 508
                                                         vi
Appendices
    Appendix I: Acronyms and Abbreviations. ....................................................... 26
    Appendix II: Scope and Methodology ............................................................... 27
    Appendix III: Criteria ......................................................................................... 29
    Appendix IV: List of Recommendations ........................................................... 33
    Appendix V: Management Comments .............................................................. 35

Tables
     Table 1: FTMs Reviewed For FYs 2008 to 2011 .............................................. 11
     Table 2: Late Expense Reports Reviewed by Fiscal Year ............................... 17




The Office of International Affairs Internal Operations and Travel Oversight            September 30, 2012
Report No. 508
                                                      vii
                       Background and Objectives

Background
The mission of the Office of International Affairs (OIA) is to:

          Promote investor protection and cross-border securities transactions by
          advancing international regulatory and enforcement cooperation,
          promoting the adoption of high regulatory standards worldwide, and
          formulating technical assistance programs to strengthen the regulatory
          infrastructure in global securities markets.2

OIA carries out its mission by:

         Advising on and assisting with cross-border securities
          investigations and prosecutions, and negotiating information-
          sharing arrangements with foreign securities regulators and law
          enforcement agencies.

         Conducting training and technical assistance programs in the
          United States and internationally for foreign regulators, particularly
          from emerging securities markets.

         Providing analysis and advice to the U.S. Securities and Exchange
          Commission (SEC or Commission) regarding rules, actions, and
          initiatives that have multinational implications, and promoting the
          adoption of meaningful and effective securities regulations and
          accounting, auditing, and enforcement standards worldwide.

Organizational Structure
Integral to OIA’s operations and its role in coordinating international issues are
the internal procedures and tracking mechanisms the office and its four operating
units use. The operating units: Technical Assistance (TA), International
Enforcement (IE), International Regulatory Policy (RP), and Comparative Law
and Regulation (CL), carry out the office’s mission and activities as described
below. Each unit is headed by an Assistant Director and is managed by a Branch
Chief.

OIA’s Director, senior staff, and counsel meet bi-weekly with supervisors from
each unit to discuss priority items, planning, and administrative matters. In
addition, each week OIA staff works with Commission staff agency-wide to

2
    See www.sec.gov.
The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                             Page 1
develop its “at a glance” international calendar. The calendar contains brief
descriptions of significant engagements between Commissioners, SEC staff and
key outside officials and representatives, as well as important foreign and
domestic conferences. Unit projects are recorded and tracked in the
International POD (I-POD) system, which is an in-house system OIA uses to
maintain and monitor the status of work that is performed. The I-POD system
also accumulates data for inclusion in OIA reports. Each week OIA attorneys
complete an assignment survey that senior management uses to control and
assign work.

OIA’s units have distinct functions and written policies and procedures that have
been developed to conduct and control their operations.

Technical Assistance. TA plans, develops, and conducts training programs
overseas. OIA conducted 19 overseas programs in 2010 and 11 in 2011. The
programs typically lasted 3 to 5 days in duration. Programs are normally funded
by outside organizations such as hosting foreign government agencies or
securities authority, World Bank, International Monetary Fund, or Asia-Pacific
Economic Cooperation. Some programs are also funded by the U.S. Agency for
International Development (USAID) under an inter-agency agreement it has with
the SEC.3

TA also develops, organizes, and conducts the nine-day “International Institute
for Securities Market Development” that is held annually in the spring, and the
five-day “International Institute for Securities Enforcement and Market Oversight”
that is held annually each fall. These seminars are complex events requiring
detailed advance planning and coordination. The fall 2011 seminar included 176
representatives from 56 countries, and the spring 2012 seminar included 161
representatives from 69 countries, as well as 6 Chairmen from the SEC’s foreign
counterparts. To maximize the breadth of participation, individuals can only
attend these seminars once every five years.

International Enforcement. IE facilitates cross-border enforcement
cooperation. The unit coordinates assistance requests with foreign law
enforcement and regulatory agencies on behalf of the Division of Enforcement
(Enforcement). Such assistance may require obtaining documents, information,
and testimony; freezing assets abroad; or conducting joint or parallel
investigations with the foreign counterparts. In so doing, IE relies on
mechanisms such as mutual legal assistance treaties, memoranda of
understanding, letters rogatory (formal requests from a court in one country to
the judicial authority in another), and ad hoc arrangements to obtain brokerage,
bank, and corporate records; foreign audit workpapers; and testimony. In
addition, IE assists foreign securities regulators with investigations when it is
necessary to obtain information and documents in the United States (U.S.). IE

3
 Interagency Agreement Between the United States Agency for International Development and the United
States Securities and Exchange Commission.
The Office of International Affairs Internal Operations and Travel Oversight    September 30, 2012
Report No. 508
                                              Page 2
strives to develop effective working relationships with foreign law enforcement
and regulatory partners.

International Regulatory Policy. RP coordinates international policy efforts
intended to promote high-quality securities regulation, and it keeps the
Commission informed of current and potential initiatives that may affect financial
markets. OIA seeks to advance SEC’s policy interests at regulatory and
standards-setting organization meetings where current and future global financial
and other initiatives are discussed and promulgated. SEC, with OIA’s
involvement, maintains a leadership presence at the International Organization of
Securities Commissions (IOSCO). Consequently, RP is an active member of
IOSCO’s technical committees, whose overall objective is to review major
securities regulatory issues. RP also participates in securities-related task forces.

Further, OIA facilitates the SEC’s participation on the Financial Stability Board.
The Board was established in 2009 with the goal of strengthening financial
systems and international financial products. OIA maintains a similar role in
other international organizations such as the Council of Securities Regulators of
the Americas, the Financial Action Task Force, and the Organization for
Economic Cooperation and Development. In addition, OIA collaborates on
diverse projects seeking enhanced transparency and disclosure, such as striving
towards high-quality global accounting standards.

Comparative Law and Regulation. CL provides analysis and advice on
international legal and regulatory issues including best practices abroad and
initiatives taken in foreign countries that may impact the SEC or U.S. markets.
CL advises the Commission on the multinational aspects of decisions and
rulemakings and on issues related to cross-border supervisory cooperation and
regulatory coordination. Additionally, CL analyzes the impact that SEC rules and
actions might have on foreign market participants in U.S. markets, and advises
the Commission on the potential impact of proposed rules and policy initiatives
by foreign regulators. CL also monitors other countries’ legislative and regulatory
reforms and keeps the Commission informed of potential conflicts and
opportunities for cross-border coordination. For example, CL analyzed the Dodd-
Frank Wall Street Reform and Consumer Protection Act of 2010, and SEC
regulations issued thereunder, to determine the impact on foreign laws and
foreign market participants in the U.S. Finally, CL coordinates closely with RP
regarding the activities and initiatives of committees and task forces that involve
RP.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                             Page 3
Performance and Accountability Report
The SEC’s 2011 Performance and Accountability Report (PAR)4 describes two
key areas (Goal 1 and 2) of OIA’s involvement in achieving the SEC’s goals.

        Goal 1 - “Foster and Enforce Compliance with the Federal
        Securities Laws”

Indicator 10 of the PAR deals with SEC’s requesting foreign regulators for
enforcement assistance and responding to similar requests from foreign
authorities. The PAR indicates the number of requests to foreign authorities for
assistance, facilitated by IE, increased by 28 percent from 2010 to 2011, due to
Enforcement’s “burgeoning need to obtain overseas documents and testimony
for investigations and litigated matters.”

        Goal 2 - “Establish an Effective Regulatory Environment”

Measure 3 focuses on the number of non-U.S. regulators trained. This effort is
coordinated by TA. The PAR indicates foreign regulators’ trainings “assist
countries in developing and maintaining robust projections for investors and
promote cross-border enforcement and supervisory assistance.” The number of
foreign regulators trained decreased from 1,997 in fiscal year (FY) 2010 to 1,765
in FY 2011, as the result of a “realignment of priorities due to resource
limitations” and limitations on the part of foreign counterparts to host or attend
training sessions. Training targets for 2012 and 2013 indicates a slight growth
from the 2011 level.

Agency-Wide Contact for Official SEC International Travel
OIA serves as the agency-wide point-of-contact for official SEC international
travel and it coordinates certain aspects of travel on behalf of the Commission.
Among other things, when SEC staff engages in international travel to attend a
conference or speaking engagement on behalf of the Commission, they must
confer with OIA prior to accepting the invitation to avoid duplication in topics and
locations other staff may have previously covered. For all official international
travel, staff or their respective office or division is required to submit a Foreign
Travel Memorandum (FTM) and supporting documents to OIA. OIA reviews the
information for completeness, coordinates the country clearance process with the
U.S. Department of State (State Department) and foreign governments, and
assesses whether there are visa requirements. OIA then submits the FTM and
documents to the Office of the Chief Operating Officer (OCOO)5 for final review


4
  U.S. Securities and Exchange Commission, FY2011 Performance and Accountability Report, pages 66
and 69.
5
  The former Executive Director performed the final review and approval until spring 2011. In May 2011, his
responsibilities and assigned staff were transferred to the Chief Operating Officer, who heads the OCOO.
The Office of International Affairs Internal Operations and Travel Oversight         September 30, 2012
Report No. 508
                                                 Page 4
and approval, and to ensure travel is limited, reasonable, and consistent with
SEC’s objectives.

SEC staff conducting official foreign travel can obtain guidance for international
travel on the SEC Insider, the SEC’s internal website, by clicking onto the
“International Travel” section. The “International Travel” site consists of the
following hyperlinks:

        “International Travel Overview” - Provides guidance to travelers.
        “International Travel Guide” (Travel Guide) - Consists of a summary
         of the international travel process for SEC staff. The Travel Guide
         “is intended to serve as a general overview of the international
         travel process and to help staff determine the necessary steps
         required for international travel.”
        “Forms” - Consists of various international travel forms such as the
         FTM.
        “Useful Links” - Includes hyperlinks to the State Department’s
         Travel Section, U.S. government international per diem rates, SEC
         Office of Financial Management (OFM) travel information, the
         Federal Travel Regulation (FTR), country visa requirements, etc.

Senior staff in each SEC division or office provides the initial approval for
official international travel they deem justified. In reviewing FTMs prior to
submission to OIA, they are required to assess the factors identified in the
Foreign Travel Guidelines.6 Each office and division is required to
coordinate with staff in the OCOO and OFM to ensure their staff follows
governing travel guidelines and protocols such as making travel
arrangements, filing and processing expense reports, and obtaining
approvals that are needed from other pertinent offices.

Objectives
The overall objective of our audit was to assess the operating effectiveness of
OIA’s functions and to identify areas for improvement to reduce or eliminate
waste, fraud, and abuse. OIG’s other audit objectives were to assess whether
OIA:

        Has viable policies, procedures, and controls for its program
         activities;
        Effectively tracks and processes requests for technical assistance
         and enforcement assistance in a timely manner;
        Has developed a program that ensures SEC employees’
         international travel is appropriately processed through OIA;

6
  The “Foreign Travel Guidelines” is comprised of the procedures that SEC staff conducting official
international travel are required to follow.
The Office of International Affairs Internal Operations and Travel Oversight          September 30, 2012
Report No. 508
                                                 Page 5
       Adequately communicates SEC’s international travel process and
        related procedures to employees; and
       Appropriately conducts and reports its staff’s international travel in
        accordance with applicable Federal regulations and internal policies
        and procedures.

OIG revised the audit’s initial objectives to include OIA international travel.
Where appropriate, OIG also identified best practices.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                             Page 6
              Findings and Recommendations

Finding 1: OIA’s Travel Coordination and Review
Processes Lacked Written Procedures
        Though OIA’s operating units’ policies, procedures, and
        controls were adequate, and the office effectively tracked
        and processed technical and enforcement assistance
        requests, it has not documented its international travel
        coordination and review procedures.

While OIA has written Commission-wide guidance on the processes,
requirements, and considerations for official foreign travel, it does not have
documented procedures for its travel coordination and review responsibilities. As
a result, when a long-time OIA employee who performed this function left the
office in December 2011, the staff who temporarily assumed the duties did not
have written guidance to assist in performing travel-related duties.

OIA’s International Travel Responsibilities and Procedures

OIA serves as the agency-wide coordinator for official international travel and it
processes, and provides pre-trip assistance to SEC staff. SEC staff or their
offices and divisions submit a FTM with supporting documentation to OIA for
international trips. OIA conducts a review to determine if the FTM and required
documents such as flight itinerary, daily itinerary, event’s program agenda, etc.,
are complete. They then assess whether it is a duplicate visit, and if there are
existing political, safety, or other issues that could affect travel to the country.
Once its review is done, OIA forwards the FTM and documentation to OCOO for
final review and approval. The approved and signed FTM is returned to OIA for
filing.

An important OIA travel-related activity is facilitating visas for SEC staff. The
“Travel Policy for SEC Employees” (SEC Travel Policy), issued January 6, 2010,
provides detailed travel guidance in a Questions and Answers format. For
example, SEC Travel Policy, Question 51 describes OIA’s visa responsibilities
and states,

        When the OIA receives your Foreign Travel Memorandum,
        the travel coordinator will review your application and advise
        you if a visa is required for the countries listed for your trip.
        Every embassy has different processing times. If a visa is
        required for your trip, the OIA coordinator will provide you
        with the necessary application. It is your responsibility to
The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                             Page 7
        return the completed visa application at least two weeks
        prior to departure.

OIA forwards staff’s visa application, passport, and photos by courier to the
respective Embassy or Consulate. Once the visa is obtained, OIA verifies it has
been recorded in the passport and then returns the passport to the traveler.

OIA also requests country clearances from the State Department for staff’s
international travel. SEC Travel Policy, Question 59 states,

        SEC requires all employees to have a country clearance
        prior to departure. OIA will assist you with your country
        clearance. You should contact OIA at least two weeks prior
        to the start of your trip.

OIA’s Internal Policies and Procedures – Best Practice

Although OIA lacks written travel coordination and review procedures, the office
has established written policies and procedures and controls for its program
activities. For example, IE uses an internal manual, a handbook, and forms to
conduct its operations, provide guidance to staff, and control quality. The manual
consists of policies and procedures for the unit’s activities. A handbook of mutual
legal assistance treaties provides guidance by country of the bilateral
agreements that are in effect. TA’s program manual provides detailed guidance
regarding the planning and execution of its programs. The manual contains
listings of key people, form letters, and a variety of control documents. TA also
maintains an extensive listing of potential program presenters by subject area. It
utilizes a control checklist for each program that enumerates tasks to be
performed, deadlines, and responsible persons.

Furthermore, RP uses an updated internal calendar to track upcoming meetings,
events, and initiatives. The SEC maintains a leadership presence on committees
of key regulatory and standards-setting bodies. OIA’s Director, Associate
Director, and Deputy Directors discuss upcoming meetings and determine which
are most important for the SEC to participate in and who should attend them. A
register of potential meetings is maintained and is updated as final
determinations are made. CL uses a variety of procedural guidance and
“models” of previous work to control its activities and product. The unit prepares
briefing memos, develops detailed analyses of U.S. and foreign laws and
potential conflicts, and creates legal briefing books, which serve as informational
resources for attorneys undertaking similar projects. The Branch Chief conducts
quality control reviews for completed products. The Branch Chief, Assistant
Director, Associate Director, and Director also perform ongoing monitoring and
conduct reviews of draft and final products.



The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                             Page 8
Further, OIA effectively processes and tracks requests for technical and
enforcement assistance. For example, projects are recorded and monitored in its
I-POD system. IE maintains a control list of foreign regulators contacted,
including the names of the individuals and the dates and nature of the interaction.
The IE Assistant Director is involved in all aspects of the unit’s activities from the
receipt of requests for assistance to the assignment of work through its
execution. TA projects come from a variety of sources: the SEC’s public website,
foreign securities regulating organizations, attendees at the Institute seminars,
and Commissioner requests. TA maintains a detailed activities calendar, which
is discussed by TA management with the Director at bi-weekly meetings.

Conclusion. Documented policies and procedures have enabled OIA’s
operating units to efficiently and effectively carry out the office’s mission. Written
procedures are needed for OIA’s international travel-related duties to ensure the
responsibility of overseeing SEC’s agency-wide international travel continues to
be performed timely and appropriately. Having these procedures might well have
served to reduce or eliminate the travel coordination deficiencies that are
described in detail in Finding 2 of this report.

    Recommendation 1:

    The Office of International Affairs (OIA) should develop and implement written
    procedures for its travel coordination and review responsibilities. The
    procedures should cover OIA’s internal duties and responsibilities and
    coordination with the Office of the Chief Operating Officer, the U.S.
    Department of State, and Commission international travelers.

    Management Comments. OIA concurred with this recommendation. See
    Appendix V for management’s full comments.

    OIG Analysis. We are pleased that OIA concurred with this
    recommendation.


Finding 2: OIA’s Travel Administrative Activities
Need Strengthening
        Travelers submitted their FTMs late and FTMs did not
        always have required supporting documentation. Further,
        although OIA maintains a log of granted country clearances
        for international trips, the office does not provide them to the
        traveler.

Employees traveling internationally are required to submit an FTM to OIA at least
two weeks prior to going on a proposed trip. Our sample review of 47 FTMs

The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                             Page 9
found deficiencies in the timeliness of submission, approvals, and completeness
of required supporting documentation.

FTM is the primary document that must be prepared for international travel. The
FTM provides trip-related details and is reviewed by OIA before it is submitted to
OCOO for final review and approval. Specifically, the FTM requires a description
of the trip, purpose, travel dates, destination, personal leave days taken during
the travel period, and an indication whether the host organization paid any costs.
It is important the FTMs have sufficient detail, the required accompanying
documents, and are timely submitted to OIA (i.e., at least two weeks prior to the
trip’s departure date). The Travel Guide, located on the SEC Insider, states,

           SEC employees traveling on international assignments are
           required to complete and submit a Foreign Travel
           Memorandum to the OIA at least two weeks prior to the
           proposed trip. OIA requires two weeks notification prior to
           any official foreign travel in order to comply with State
           Department country clearance regulations and to obtain
           approval from the Executive Director's Office.7

As described in the Travel Guide, SEC international travelers are required to
include a flight itinerary, daily itinerary, and program agenda (normally provided
by the event organizer) with the FTM. For enforcement-related matters, a judicial
assistance form is also required when staff travels to take testimony, interviews
witnesses, or gathers evidence. These documents are needed to support the
FTM. The flight itinerary corroborates the travel beginning and ending dates, the
detailed program helps substantiate the purpose of the trip, and the day-to-day
itinerary details the official daily activities and identifies personal leave days the
traveler is approved to take. The documents should agree with information in the
FTM, as well as personal leave requests that are approved in Quicktime, the
SEC’s employee time and attendance system.

As shown in Table 1 below, OIG judgmentally selected a sample of 47 FTMs to
review and verify completeness, timeliness, and approval. Our sample was
comprised of a cross-section of FTMs from both OIA and agency-wide staff who
conducted official international travel during FYs 2008 to 2011.




7
    See SEC Insider. Effective May 2011, approvals are obtained from the OCOO.
The Office of International Affairs Internal Operations and Travel Oversight     September 30, 2012
Report No. 508
                                                Page 10
           Table 1: FTMs Reviewed For FYs 2008 to 2011
                  Year                 Sample Pool               Number in
                                                                  Sample
            2008 – 2011         SEC Agency-wide Staff                 20
            2010 - 2011         OIA Staff                             20
            2010 – 2011         OIA Director and Support               7
                                Personnel
            Total FTMs                                                47
            Reviewed
           Source: OIG generated.

Our review of FTMs and supporting documentation found:

       Twenty-four of 47 (51 percent) FTMs were dated less than two
        weeks prior to the start date of travel, contrary to SEC Travel
        Policy.
       Nine of 47 (19 percent) FTMs did not have one or more of the
        required supporting documents.
       The former Executive Director approved 9 of 47 (19 percent) FTMs
        on or after the traveler’s departure date.
       Two of 47 (4 percent) FTMs did not have the former Executive
        Director’s approval.
       One FTM did not have OIA’s signature documenting its review;
        however, it was approved by OCOO.

The above deficiencies occurred due to non-compliance with SEC FTM
submission requirements, the lack of communication among parties, and
travelers not following up on missing items submitted to the OIA travel
coordinator. Written procedures for OIA’s travel-related responsibilities, as
discussed in Finding 1, do not exist and could have aided in reducing or
eliminating the discrepancies OIG found.

In discussing the timeliness of FTMs being prepared with OIA’s Director and
Deputy Director for Policy, OIG was informed that for OIA staff’s international
travel, the trip details are normally discussed well in advance of the trip and OIA’s
travel coordinator is notified of upcoming travel before the FTM is prepared. For
agency-wide staff, OIG was told that OIA often discusses the travel with
management in the traveler’s office or division. We were also told that last-
minute travel is unavoidable and results in FTMs being submitted late. However,
OIA agreed they recognize the importance of timely approving FTMs and
indicated that in the future OIA will monitor the process more closely.

While we found delays in the former Executive Director’s approval of FTMs,
these delays occurred prior to the transfer of international travel responsibilities
to the OCOO in May 2011. FTMs in our sample requiring OCOO’s approval
were timely approved when received.


The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 11
Country Clearances. Prior to staff’s departing on international travel, OIA
requests country clearance from the State Department, and provides them with
the trip’s details. The request informs the State Department and Embassy
officials about the travelers travel duration, purpose, country location, and lodging
location. This information is important for informational and security purposes.
OIA maintains a log of clearances that have been granted, but does not forward
them to the traveler. We believe country clearances are an important document
travelers should retain when they are out of the country because it documents
their official and approved status to be in the foreign country. OIG determined
that OIA should supply the country clearances to travelers.

Disapproved International Travel. We found there were no disapproved
international travel requests in our sample review of FTMs for FYs 2008 to 2011.
We were told that questions and concerns identified during OCOO’s review are
followed up and resolved with the traveling office or division, prior to the FTM
being approved.

Conclusion. OIG determined that FTMs were submitted late due to last-minute
travel occurring and because SEC employees may not be familiar with FTM’s
requirements and their responsibility to coordinate international travel with OIA.
We further determined that some FTMs did not include the required documents
due to the lack of oversight by the OIA travel coordinator or traveler’s not being
aware of the Travel Guide’s requirement to include a flight itinerary, daily
itinerary, program agenda, etc., when the FTM is submitted to OIA. We further
determined that the country clearance is an important document that international
travelers should be required to retain as part of their official documents for
security purposes because it shows they are approved to be in the particular
country.

        Recommendation 2:

        The Office of International Affairs and the Office of the Chief Operating
        Officer should periodically issue an SEC Administrative Notice or SEC
        Today reminder to Commission staff informing them of their requirement
        to prepare the Foreign Travel Memorandum (FTM) at least two weeks
        before the travel date and to provide the required supporting documents
        (e.g., flight itinerary, daily itinerary, and program agenda) with the FTM.

        Management Comments. OIA and OCOO concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OIA and OCOO concurred with this
        recommendation.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 12
        Recommendation 3:

        The Office of International Affairs (OIA) and the Office of the Chief
        Operating Officer should revise the Foreign Travel Memorandum (FTM) to
        include a statement on the FTM indicating when it must be submitted to
        OIA and a reason or justification for late submissions.

        Management Comments. OIA and OCOO concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OIA and OCOO concurred with this
        recommendation.

        Recommendation 4:

        The Office of International Affairs and the Office of the Chief Operating
        Officer should establish controls to ensure that the Foreign Travel
        Memorandum contains all supporting documents prior to submitting it to
        the Office of the Chief Operating Officer for approval.

        Management Comments. OIA and OCOO concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OIA and OCOO concurred with this
        recommendation.

        Recommendation 5:

        The Office of International Affairs should forward granted country
        clearances to Commission staff prior to their departure on official
        international travel and request staff maintain the document while on travel
        status.

        Management Comments. OIA concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OIA concurred with this
        recommendation.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 13
Finding 3: The Justification for Taking
International Trips Was Not Always Properly
Documented
        The justifications for three international trips OIA staff took
        did not include sufficient support in the FTM regarding the
        benefits derived to the SEC from taking the trips in
        relationship to cost. This information is important when
        validating whether SEC travel is reasonable and consistent
        with its objectives.

We identified three trips where the justification for taking the trips should have
been better documented. These trips consisted of a:

       November 2009 trip to Rome for a person in OIA to attend a one-
        day IOSCO meeting;
       December 2009 trip to Dubai for a person in OIA to attend a one-
        day IOSCO meeting; and
       March 2010 multi-stop trip for a person in OIA to attend a two-day
        IOSCO meeting in Sydney and a one-day European Capital
        Markets Institute conference in Brussels.

OIG determined the FTMs and supporting documents for these trips did not
provide sufficient information to validate whether the travel was reasonable and
consistent with SEC’s objectives. Therefore, OIG examined whether the benefits
of SEC staff attending these meetings were effective in relation to the cost of the
trips. Our sample universe did not have any instances of such travel occurring in
2011.

OIA’s Deputy Director for Policy drafted and provided OIG a memorandum dated
February 23, 2012 that justified the importance of having its staff attend the
IOSCO meetings that were held in Rome and Dubai. Similarly, the Director
provided OIG with a memorandum on February 22, 2012 that explained
international standards were being developed at these meetings and it was
important the SEC be physically present.

With regards to the Sydney and Brussels meetings, OIA’s Director informed us
that “attending meetings of IOSCO are really not optional…. We attend these
meetings because the U.S. wants and needs to be present in the development of
these standards.” He also stated that critical negotiations were conducted face-
to-face among participants, and the SEC’s physical presence at these meetings
was important. The FTM was prepared six days before the person departed for
the trip, which violates the requirement that FTMs be submitted to OIA at least
two weeks prior to the proposed trip departure date. The timely preparation

The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 14
of FTMs would have provided OCOO with sufficient time to follow up and resolve
questions it may have had regarding the justification for sending staff on the trips.

Currently, FTM’s instructions require a brief summary describing the nature of
staff’s international travel, but they do not clearly require a justification regarding
the benefits that are derived to the SEC. Having a justification on the FTM for
international travel cost would provide transparency and an explanation as to
why and how the trip benefits the SEC. We believe this will further aid OCOO in
determining whether the trip should be approved.

Conclusion. Based on our review of FTMs, supporting documents and
interviews, we determined to validate whether travel is reasonable and consistent
with SEC’s objectives, FTMs should include a justification for all international
travel requests.

It is incumbent upon agency personnel to make the best use of SEC’s resources.
This requires the SEC maintain a record of the benefits related to proposed
activities and costs. Not giving due consideration to the benefits of a particular
trip in relation to its costs can result in an ineffective use of agency resources.
Given the scrutiny of stakeholders regarding the SEC’s budget, all international
trips and the related benefits must be reviewed and approved based on
substantiated support and the needs of the SEC.

The Deputy Director for Policy agreed FTM documentation could have better
reflected the justification for the trips. OIA acknowledged the FTM should be
revised to include language to make the benefits of international trips clearer.

        Recommendation 6:

        The Office of International Affairs in coordination with the Office of the
        Chief Operating Officer should revise the Foreign Travel Memorandum to
        include a justification section. The justification should provide a clear
        explanation as to why and how the trip benefits the Commission and
        should indicate that the trip is warranted.

        Management Comments. OIA and OCOO concurred with this
        recommendation. See Appendix V for management’s full
        comments.

        OIG Analysis. We are pleased that OIA and OCOO concurred
        with this recommendation.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 15
Finding 4: OIA’s Staff’s Compliance with Federal
Travel Regulations and SEC Travel Policies Needs
Improvement Regarding International Travel
        Our review of expense reports found they were not timely
        submitted to OFM. Further, we found compliance related to
        business class travel, taxis and airport parking, per diem for
        hotels, meals and incidental expenses, and compensatory
        time for travel needs to be improved.

Our expense report review revealed that 61 percent (25 of 41) of the reports in
our sample were not submitted to OFM within five working days after the
travelers trip was completed, as required by FTR Section 301-52.7 and SEC
Travel Policy, Question 92. When conducting official international travel, SEC
staff is required to submit an expense report to OFM within 5 working days after
the trip ends. OFM’s Systems and Travel Branch reviews the expense reports to
ensure compliance with FTR, 41 Code of Federal Regulations, Chapters 300-304
and for appropriateness.

OIA conducts certain overseas technical assistance and training under an inter-
agency agreement the SEC has with USAID. The agreement stipulates that:

        “Except as USAID may otherwise agree in writing, all travel
        financed under this Agreement shall be subject to the
        Federal Travel Regulations.”

To review OIA’s international travel we selected a sample of 41 expense reports.8
OIG randomly selected 21 expense reports covering FYs 2008 to 2011. To
ensure the sample included a variety of SEC staff and countries, we then
selected 20 additional expense reports that covered FYs 2010 and 2011, for a
total of 41 expense reports.

FTR and SEC Policy Covering Expense Reports. FTR and SEC Travel Policy
require that expense reports are submitted to OFM within five working days of a
trip’s completion. Specifically, FTR section 301-52.7 states,

        Unless your agency administratively requires you to submit
        your travel claim within a shorter timeframe, you must submit
        your travel claim as follows: (a) Within 5 working days after
        you complete your trip or period of travel….



8
 In addition to OIA staff’s expense reports, our sample included two expense reports from other SEC staff
who participated on a technical assistance visit with OIA.
The Office of International Affairs Internal Operations and Travel Oversight        September 30, 2012
Report No. 508
                                                Page 16
FTR policy is reinforced by the February 28, 2011 memorandum that was issued
by the Chief Financial Officer, “Required Expense Report Filing within 5 Days for
All SEC Employees.” Most expense reports we reviewed were submitted later
than five working days after the traveler had completed their trips. Of the 41
expense reports in our sample, 25 (61 percent) were submitted late to OFM.
Further, 9 of the 25 were submitted 1 to 2 months after the trips’ completion, and
7 were submitted 2 or more months after the trips were completed. Table 2
illustrates the sample selection of 25 late expense reports we reviewed by FY.

                        Table 2: Late Expense Reports
                        Reviewed by Fiscal Year
                               Fiscal Year            Late Expense
                                                        Reports
                                   2008                       2
                                   2009                       5
                                   2010                      10
                                   2011                       8
                          Total                              25
                        Source: OIG Generated.

OIA’s Deputy Director for Policy explained that upon returning from overseas
trips OIA staff should have prioritized getting their expense reports completed.
The late submission may have occurred due to work demands such as handling
office issues or having to follow up on trip-related items. Other reasons given for
the lateness were that OIA staff may be confused as to what they are required to
submit and when it should be submitted. An OIA staff told OIG that he thought
the submission process was achieved when he provided OIA’s support person
with receipts and supporting documents to prepare his expense report.

FTR and SEC Travel Policy Covering Business Class. FTR Sections 301-
10.123 and 301-10.125, and SEC Travel Policy, Questions 21 and 23, are
consistent as to when a traveler can fly business class. The technical
requirements include origin and/or destinations outside the continental U.S. and
scheduled flight time that is in excess of 14 hours duration, unless the traveler
has a medical exception. Outbound and return flights are separately considered
in making this determination. Business class is not authorized if the traveler is
not required to report for duty the day after arriving at the destination.

Additionally, travelers are expected to select the least expensive class of service
that meets their needs and use business class only if it is necessary in achieving
the agency’s mission.

Based on our sample universe, OIG reviewed an air ticket issued for a series of
flights that required stopovers en route to two different meetings, as discussed in
Finding 3. The flights were:



The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 17
    (1) Washington D.C. to Sydney Australia,
    (2) Sydney Australia to Brussels Belgium, and
    (3) Brussels to Washington D.C.

Business class tickets were issued for all legs of these trips. Our review found
that the nonstop flight from Brussels to Washington D.C. was less than 14 hours.
The expense report did not indicate an exception for booking the flight in
business class. The traveler spent one day in Brussels to attend a meeting, then
took a leave day before he flew back to Washington D.C. The traveler informed
OIG he realized upon checking-in at the Brussels airport that he was booked in
business class and attempted to change the ticket to coach. However, the airline
representative informed him that it would cost an additional amount to change
the ticket at that point, so he did not change it.

In another instance, OIG reviewed the expense reports for an OIA employee and
a non-OIA employee, who went on a Technical Assistance trip that was funded
by USAID. The employees flew separately in business class from Washington,
D.C. to Nairobi, Kenya, and immediately upon their arrival at the destination; both
took leave before the Technical Assistance program started. Because they were
not required to report for duty the day after arriving in Nairobi, Kenya, and each
person took personal leave prior to the start of official business, they were not
authorized to travel using business class in accordance with SEC Travel Policy,
Question 23. Also, according to FTR Section 301-10.123, travelers “should
consider the least expensive class of travel that meets their needs.” Our
expense report review further found that the OIA employee erroneously charged
$188.18 for hotel cost on his expense report for the first night he arrived in
Nairobi. This situation is akin to a rest period that can be taken when coach
travel is used. Because this employee took leave, he was not entitled to be
reimbursed for hotel expenses for his first night stay in Nairobi.

FTR and SEC Travel Policy Covering Taxis and Airport Parking. OIG’s
review of fees associated with taxis and airport parking found that travelers
occasionally drove their vehicles to the airport and parked there for the duration
of their trips. They then included airport parking fees on their expense reports.
In three cases, we found that the round-trip cost of taking a taxi between either
the traveler’s home or office and the airport was less than the cost of parking at
the airport. FTR Section 301-10.308 states: “Your agency may reimburse your
parking fee as an allowable transportation expense not to exceed the cost of taxi
fare to/from the terminal.”

Information Submitted With the Expense Reports. Upon returning from
travel, OIA travelers informed OIG they give their receipts to an OIA support staff
person who then prepares their expense report. To identify expenses that do not
require a receipt, OIA travelers normally attach a description of the nature and
amounts of charges they are seeking to be reimbursed. We found that the
presentation and level of detail of this information varied from person-to-person.

The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 18
For example, the information provided by one traveler was in a detailed narrative;
another person used an abbreviated handwritten itemization of charges.
Similarly, for many trips, particularly the technical assistance trips, meals were
provided on-site by the host organization, and staff itemized the items to reduce
their total per diem amounts.

One report we reviewed included two non-receipted items for taxi and medical
insurance that amounted to $113.30. These charges mistakenly were not
included on the expense report, so they were not reimbursed. The traveler did
not notice the error when he submitted this expense report for processing.

In another expense report we reviewed, the traveler’s list of meals that were
provided by the host (i.e., breakfast, lunch, dinner) varied in amount each day.
However, the daily amounts on the expense report generally did not change.
The total per diem on the expense report agreed with the traveler’s list. The
traveler did not know why the daily per diem on the expense report differed from
the list she prepared. The person who prepared the expense report no longer
works in OIA. We determined this discrepancy may have occurred due to
confusion by the person who prepared the expense report.

Best Practice. When we brought the above matter to the Deputy Director for
Policy and TA’s Branch Chief attention, the Branch Chief immediately developed
a standardized form to capture per diem and other expenses in a single location.
The form will be used by travelers to accumulate their expenses, including daily
per diem amounts. Having a comprehensive standardized form should make it
easier for OIA travelers to properly capture all charges on the expense report.
Also, the standardized form will make it easier for support staff who may prepare
the expense reports to identify all applicable charges.

Per Diem, Meals, and Incidental Expenses Associated With USAID-Funded
Technical Assistance Program. OIG reviewed the expense reports for the two
employees that went on the OIA technical assistance trip to Nairobi, Kenya. Our
review found that one of the travelers charged zero per diem for the two flight
days to Nairobi. He then took two personal days off and charged 75 percent of
the overall per diem ($88.50) for the day before the program commenced.
“Meals and Incidental Expenses (M&IE) Breakdown” issued by the U.S. General
Services Administration and linked to FTR Section 301-11.318, states: “The first
and last calendar day of travel is calculated at 75 percent.” Further, SEC Travel
Policy, Question 74 mirrors the FTR and states: if traveling more than 24 hours,
“on the day you depart, you will receive 75 percent of your M&IE allowance
(regardless of the time you left) for your TDY location….” Accordingly, the
traveler was entitled to 75 percent per diem, or $88.50, for the day of departure,
plus regular per diem of $188 for the day before the program. Further, the
justification for early departure on the expense report was incorrect. It states,



The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 19
“Leave exception. Traveler left 3 days early in order to prepare for the meeting in
Kenya.” However, the employee took leave before official business started.

Lunch was provided by the host during the five-day program. However, the two
travelers did not exclude $30 in per diem for lunch that was provided on their
respective expense reports. FTR section 301-11.18 states: “….your M&IE
allowance must be adjusted for meals furnished to you by the Government…by
deducting the appropriate amount shown in the chart…in Appendix B of this
chapter for meal deductions for OCONUS and foreign travel.”

Calculating Compensatory Time For Travel
Section 203 of the Federal Workforce Flexibility Act of 2004 (Public Law 108-411,
October 30, 2004) authorized compensatory time off for government employees
who travel from their official duty station outside of normal working hours. As a
result, the SEC issued “Human Capital Directive and Procedure” policy on July
13, 2005 and revised it on May 9, 2006 (Compensatory Time for Travel policy).
The Compensatory Time for Travel policy provides procedural guidance to SEC
employees. When compensatory time for travel is earned it must be used within
26 pay periods subsequent to the work period giving rise to it, or it is forfeited.
Compensatory time for travel is forfeited when an employee leaves the SEC,
which includes being transferred to another Federal agency. Compensatory time
for travel is never paid.

To record compensatory time for travel, the Commission developed and issued
the form, “Worksheet for Determining Amount of Compensatory Time for Travel”
(SEC Worksheet), which employees requesting compensatory time for travel are
required to complete. While the SEC Worksheet requests total compensatory
time for travel hours by day, it does not require a daily breakout of the
components of these hours, such as airport waiting time, flying time, time from
the foreign airport to the hotel, meal periods, and travel spent during regular
working hours. To provide greater detail, OIA developed an additional form,
“Compensatory Time for Travel Worksheet,” (OIA Worksheet) to complement the
SEC Worksheet. OIA travelers fill out both forms and submit them to the OIA
reviewer, who currently is the Deputy Director for Operations, and then to the
timekeeper to record into Quicktime.

Currently, a flight itinerary is not required to accompany the compensatory time
for travel worksheets. However, it is needed to verify the calculation’s
correctness. Our review of OIA’s compensatory time travel files for 2010 and
2011 found that flight itineraries were not always attached to the compensatory
time for travel worksheets.

Also, OIG found inconsistencies in how OIA travelers addressed time zone
changes on the OIA Worksheet. Some travelers used the actual departure and
arrival times and footnoted the number of time zones traveled. Others noted
The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 20
the number of hours traveled. While either method is acceptable, using the origin
and destination’s actual flight times best reflects the times on the flight itinerary
and thus makes the compensatory time for travel calculation easier to review.

We randomly selected six compensatory time for travel submissions from our
original sample of expense reports to test the calculations. For each submission
we obtained the:

    (1) SEC and OIA Worksheets,
    (2) flight itinerary,
    (3) FTM, and
    (4) time sheets for the travel periods.

Our review found that two of the six calculations had discrepancies in the
amounts as follows:

       For two of the six trips the travelers included as compensatory time for
        travel their commute from home to the airport at the beginning of the trip
        and from the airport to home at the end of the trip. According to
        Compensatory Time for Travel policy “the travel time outside regular
        working hours to or from the terminal is considered to be equivalent to
        commuting time and is not creditable as time in a travel status.”

       For one of the six trips travel spanned two pay periods, but the
        compensatory time for travel hours were all recorded in the first pay period
        in Quicktime. Because compensatory time for travel expires 26 pay
        periods after the period of the related travel, it is important that the time is
        recorded in the proper pay period. Also, OIA’s timekeeper informed OIG
        that she “smoothes” compensatory time for travel hours among the
        employee’s days of travel giving rise to compensatory time for travel when
        she records them. For example, if 40 hours of compensatory time for
        travel is earned and there are four days of compensatory time for travel-
        related travel, she enters 10 hours for each day into Quicktime. This
        methodology can lead to incorrect timing if the employee’s travel spans
        more than one pay period.

       For a multi-flight trip in December 2009 that spanned approximately 22
        hours in each direction, only one-half hour in total was deducted on the
        SEC Worksheet for meals. Compensatory Time for Travel policy states:
        “Meal periods during actual travel time or waiting time are not creditable
        as time in a travel status.” Further, the flight occurred over two workdays.
        However, the traveler did not deduct the normal 8 working hours on the
        second day of the flight, which spanned about 11 hours, in arriving at the
        compensatory time for travel for that day.



The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 21
We also found that a traveler was approved to take leave the Friday after
completing an official meeting that was held on Thursday. This information was
correctly noted in the FTM and per diem and lodging was not charged to the
expense report. However, the time was recorded in Quicktime as an official work
day under the work code “010.” FTM guidance states “Traveler should arrive the
day before and leave the day after the event. Any days before and/or after the
event that are not travel days will be counted as personal days.” Further, “Any
days that traveler is not conducting official duties or that are not travel days, are
considered personal days.” The traveler told us that he recalled having difficulty
entering the time in Quicktime and requested assistance from an OIA support
staff person. This item was not corrected in Quicktime.

Because approved compensatory time for travel results in employees earning
leave, it is important that documents supporting requests for compensatory time
for travel be properly prepared and questions that may be followed up
immediately. Also, OIA’s timekeeper must ensure that when compensatory time
for travel is approved for employees, the hours are properly recorded into
Quicktime.

Conclusion. Expense reports should be submitted to OFM within five working
days after the trip is completed, in accordance with the FTR and SEC policy
covering travel. Based on our review of expense reports OIG determined this did
not occur due to employees’ work demands when they returned from travel and
employees being unclear about when and what they are required to submit to
OFM. Further, our review of business class travel, taxis and airport parking, per
diem for hotels, M&IE, and compensatory time for travel found that OIA staff’s
understanding of travel and Compensatory Time for Travel policies needs to be
strengthened.

        Recommendation 7:

        The Office of International Affairs should establish procedures and
        periodically provide training to its staff on the proper application of Federal
        travel regulations and Commission travel policies in: trip planning,
        preparing expense reports, and in determining and recording
        compensatory time for travel.

        Management Comments. OIA concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OIA concurred with this
        recommendation.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 22
        Recommendation 8:

        Office of International Affairs should periodically remind staff about the
        requirement to submit expense reports within five working days after
        completion of travel to the Office of Financial Management.

        Management Comments. OIA concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OIA concurred with this
        recommendation.

        Recommendation 9:

        The Office of International Affairs should ensure its timekeeper records
        compensatory time for travel in the pay period that the hours are earned.

        Management Comments. OIA concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OIA concurred with this
        recommendation.


Finding 5: Some International Travel Information
on SEC’s Internal Website Is Outdated
        The “International Travel” section on the SEC Insider
        contains information that is outdated and incorrect.

As previously mentioned, staff conducting official SEC foreign travel can obtain
assistance in preparing for their trips by reviewing the requirements that are
discussed in the “International Travel” site located on the SEC Insider. The site
provides guidance to employees on the SEC’s international travel process, which
is coordinated by OIA and travel-related procedures. The site further contains
the International Travel Overview and Travel Guide links, as well as links to
required forms and other useful information.

The International Travel Overview provides a summary of OIA’s responsibilities
regarding foreign travel. The Travel Guide is designed “to help SEC staff
determine the necessary steps required for international travel,” and it contains
information on how to obtain a passport and visa and preparing the FTM and
supporting documents.



The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 23
The SEC Insider is the primary source used to communicate the SEC’s
international travel processes and procedures. Accordingly, it is important this
information is current and the site is periodically reviewed and updated as
needed. Having outdated or inaccurate travel information on the SEC Insider
results in travelers’ being misinformed and could lead to them not taking needed
action, or obtaining and providing needed documents to OIA in a timely manner.

OIG found that some international travel information is outdated. For example,
the International Travel Overview states that “The Office of International Affairs
(OIA) coordinates and approves all international staff travel for the SEC.” OCOO
actually approves SEC staff’s international travel. OIA receives the FTM and
supporting documents and reviews them for completeness, duplication of trips by
other SEC staff, and for security and related issues, then forwards the
documents to OCOO for final review and approval.

Further, both the Travel Guide and the International Travel Overview refer to the
former Office of the Executive Director who left the SEC in May 2011. As
previously noted, the former Executive Director’s travel approval responsibilities
were transferred to OCOO in May 2011. In addition, the Travel Guide indicates
the Request for Participation in an Outside Meeting form “must be faxed to OIA
along with your Foreign Travel Memorandum….” However, according to an SEC
Administrative Regulation, the traveler should actually forward this form to OFM.

OIA’s Director and the Deputy Director for Policy told us they are aware that
discrepancies exist and will have the information reviewed and updated as
needed.

Conclusion. The International Travel site on the SEC Insider is the primary
source used to communicate the SEC’s international processes and procedures
to employees. Accordingly, it is important the site is current. OIG found some
information was outdated or inaccurate because OIA and OCOO had not
reviewed the site to ensure the information was accurate. Such periodic reviews
are essential to ensure that SEC staff reviews current, up-to-date information
when planning their official international travel. OIA and OCOO informed OIG
the site has now been reviewed and updated.

        Recommendation 10:

        The Office of International Affairs and the Office of the Chief Operating
        Officer should coordinate with appropriate Securities and Exchange (SEC)
        offices and review the guidance located on the SEC Insider related to the
        SEC’s international travel processes and procedures, and regularly
        updates this information as needed.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 24
        Management Comments. OIA and OCOO concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OIA and OCOO concurred with this
        recommendation.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 25
                                                                                    Appendix I


                    Acronyms and Abbreviations

              A-123                Office of Management and Budget Circular A-
                                   123 “Management’s Responsibility for Internal
                                   Control”
              CL                   Comparative Law and Regulation
              COSO                 Committee of Sponsoring Organizations of the
                                   Treadway Commission
              Compensatory         SEC Human Capital Directive and Procedure
              Time for Travel
              Policy
              Enforcement          Division of Enforcement
              FTM                  Foreign Travel Memorandum
              FTR                  Federal Travel Regulation
              FY                   Fiscal Year
              IE                   International Enforcement
              IOSCO                International Organization of Securities
                                   Organizations
              I-POD                International Pod
              OCOO                 Office of the Chief Operating Officer
              OFM                  Office of Financial Management
              OIA                  Office of International Affairs
              OIA Worksheet        OIA’s Compensatory Time for Travel
                                   Worksheet
              OIG                  Office of Inspector General
              PAR                  Performance and Accountability Report
              Quicktime            SEC’s Time and Attendance System
              RP                   International Regulatory Policy
              SEC or               U.S. Securities and Exchange Commission
              Commission
              SEC Insider          SEC’s Internal Website
              SEC Travel           Travel Policy for SEC Employees
              Policy
              SEC                  Worksheet for Determining Amount of
              Worksheet            Compensatory Time for Travel
              State                U.S. Department of State
              Department
              TA                   Technical Assistance
              Travel Guide         International Travel Guide
              U.S.                 United States
              USAID                U.S. Agency for International Development




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 26
                                                                                    Appendix II


                         Scope and Methodology

As part of our annual audit plan the OIG conducted an audit of OIA’s internal
operations and oversight for SEC employees conducting official international
travel.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We determined that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. The scope of our audit covered FYs 2008 to 2011. Our fieldwork was
conducted from November 2011 to July 2012. The audit focused on assessing
the internal operations of OIA functions, policies, procedures and official
international travel by SEC staff. The scope further included identifying areas for
improvement to reduce or eliminate fraud, waste, and abuse.

Methodology. We reviewed OIA’s policies, procedures, and controls over its
program activities and its tracking and processing of requests for technical and
enforcement assistance. Further, we conducted interviews with OIAs Director,
Deputy Directors, Assistant Directors, Branch Chiefs, other OIA staff, OCOO
staff, as well as agency staff.

To determine if OIA’s controls over were operating effectively, we conducted
walkthroughs of the procedures, processes, and controls with respect to tracking
and processing requests for technical assistance and enforcement assistance.
We then tested the documentation for international trips, consisting of the FTM
and supporting documents, maintained in OIA’s travel files. Also, we reviewed
the FTM and supporting documents for completeness and ascertained if it was:
appropriately reviewed and approved and submitted timely to OIA and the
OCOO.

In addition, we tested a sample number of the expense reports for international
travel that was taken by OIA’s staff for compliance with Federal travel regulations
and SEC travel policy. To do our testing we developed a statistical sample of
OIA’s staff’s international travel that occurred during the scope of our audit. To
ensure the later years were adequately covered in our sample and to ensure the
testing sample included a mix of countries and SEC staff, our sample universe
consisted of a statistical sample and a judgmental sample of expense reports for
FYs 2010 and 2011 in our sample universe.



The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 27
                                                                                    Appendix II


Finally, we reviewed OIA’s planning process for the Securities Enforcement and
Securities Market Development Institutes that were held at SEC’s headquarters’
location in November 2011 and April 2012. OIG attended several sessions. We
also reviewed a sample number of written comments attendees provided to OIA
regarding the sessions.

Internal Controls. We based our assessment of OIA’s internal controls that
were significant to our audit objectives on the Committee of Sponsoring
Organizations of the Treadway Commission framework, which includes control
environment, control activities, information and communication, and monitoring.
Among the internal controls that we assessed were OIA’s controls over its
program activities and its processing and tracking of requests for technical
assistance and enforcement assistance, and its controls over the coordination
and processing of FTMs.

Judgmental and Statistical Sampling. OFM’s Systems and Travel Branch
provided us with a list of OIA international travel expense reports that covered
FYs 2008 to 2011. The audit universe of expense reports OIG obtained
consisted of 404. We used the EZ Quant Statistical Analysis Audit tool to
generate 21 expense reports for our sample testing pool. This sample was
designed to project rates of occurrence with 90 percent confidence that the point
estimate is within +- 20 percent of the audit universe.

Additionally, to complement the statistical sample, we judgmentally selected 20
expense reports that covered FYs 2010 and 2011, for a total of 41 expense
reports. This was done to give added coverage to later years and to ensure a mix
of countries and travelers were included in our sample.

To review OIA’s travel files for international trips SEC staff took, we selected a
judgmental sample of 40 FTMs for OIA and non-OIA staff. We further
judgmentally selected 7 foreign travel memoranda from the Director’s office files
to include in our sample.

Prior Audit Coverage. In 1998 OIG conducted an audit of OIA’s functions and
issued the report “International Technical Assistance,” Audit No. 284, on October
27, 1998, related to the audit. Overall the report found that OIA’s process for
providing technical assistance to foreign securities regulators was operating
efficiently and effectively. The report contained 13 recommendations that have
since been appropriately closed.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 28
                                                                                   Appendix III


                                          Criteria

OMB Circular A-123 (Revised), Management’s Responsibility for Internal
Control, December 21, 2004. Establishes that management has a fundamental
responsibility to develop and maintain effective internal control.

U.S. Securities and Exchange Commission FY 2011 Performance and
Accountability Report, Pages 66 and 69. Describes areas of involvement by
OIA in achieving the SEC’s performance goals for FY 2011.

FTR, 41 CFR, Chapters 300-304. Prescribes travel policies and procedures to
be followed by federal government employees. Specific FTR policies that pertain
to this audit are as follows:

        FTR Section 301-10.123: “Government travelers are required to
        exercise the same care in incurring expenses that a prudent person
        would exercise if traveling on personal business when making
        official travel arrangements, and therefore, should consider the
        least expensive class of travel that meets their needs.”

        FTR Section 301-10.123 (b): “Your agency may authorize/approve
        business-class accommodations if any of the following apply…(6)
        Where the origin and/or destination are OCONUS [outside the
        continental United States], and the scheduled flight time, including
        stopovers and change of planes, is in excess of 14 hours….”

        FTR Section 301-10.125 (a): “You may use the 14-hour rule to
        travel via other than coach-class when…(3) You are required to
        report to duty the following day or sooner.”

        FTR Section 301-10.308: “Your agency may reimburse your
        parking fee as an allowable transportation expense not to exceed
        the cost of taxi fare to/from the terminal.”

        FTR Section 301-11.318: “…your M&IE allowance must be
        adjusted for meals furnished to you by the Government…by
        deducting the appropriate amount shown in the chart…in Appendix
        B of this chapter for meal deductions for OCONUS and foreign
        travel.”

        Meals and Incidental Expenses (M&IE) Breakdown issued by the
        U.S. General Services Administration and linked to FTR Section


The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 29
                                                                                   Appendix III

        301-11.318: “The first and last calendar day of travel is calculated
        at 75 percent.”

Travel Policy for SEC Employees, issued by the SEC Office of Financial
Management, January 6, 2010. Provides detailed travel policy and procedural
guidance in the form of a numbered series of 111 Questions and Answers.

Specific travel policies that pertain to this audit are as follows:

        SEC Travel Policy, Question 20: “Approving Officials must ensure
        that premium travel and/or actual subsistence is only utilized if
        necessary to meet the SEC mission and cannot be reasonably
        avoided. The intended use of premium travel and/or actual
        subsistence must not be misunderstood or misconstrued as a
        matter of convenience.”

        SEC Travel Policy, Question 21: “OFM Authorization Officials must
        ensure all requests for premium travel or lodging…(a) Comply with
        FTR Section 301-10.123 for premium travel…(b) Meet criteria for
        approval of premium travel that will be consistently applied to all
        SEC staff and management.” …(f) Are validated to ensure premium
        travel and upgraded lodging is only approved when necessary and
        in direct support of the SEC mission and not based on SEC staff
        personal preferences or convenience.”

        SEC Travel Policy, Question 23:

               “You are not authorized premium class accommodations
                when you are not required to report for duty the following
                day, whether at the PDS [permanent duty station] or a TDY
                [temporary duty] location, unless there are medical needs
                that have been certified by a competent medical authority.”

               “Also, if you are approved to take annual leave at the TDY or
                relocation point prior to the start of official business, or are
                approved to take annual leave upon reporting to a PDS
                location, neither a rest stop nor premium class [flight]
                accommodations are authorized, unless there are medical
                needs that have been certified by a competent medical
                authority.”

               “Just because your approving official authorized premium
                class [flight] accommodations for the outbound part of your
                TDY does not automatically justify the use of the premium
                accommodations for the return trip. The same tests
The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 30
                                                                                   Appendix III


                regarding critical nature, authorizing rest stops, and/or the
                availability of rest periods should all be considered by
                authorizing officials.”

               “Please note that the length of the flight alone (14 or more
                hours) does not justify authorizing premium class. When
                considering premium class accommodations for trips over 14
                hours, approving officials should consider: (a) The
                constructive cost…(b) The purpose and urgency of the
                trip….”

        SEC Travel Policy, Question 51: “When the OIA receives your Foreign
        Travel Memorandum, the travel coordinator will review your application
        and advise you if a visa is required for the countries listed on your trip.
        Every embassy has different processing times. If a visa is required for
        your trip, the OIA coordinator will provide you with the necessary
        application. It is your responsibility to return the completed visa
        application at least two weeks prior to departure.”

        SEC Travel Policy, Question 59: “SEC requires all employees to have a
        country clearance prior to departure. OIA will assist you with your country
        clearance. You should contact OIA at least two weeks prior to the start of
        your trip.”

        SEC Travel Policy, Question 74: “…on the day you depart, you will
        receive 75 percent of your M&IE allowance (regardless of the time you
        left) for your TDY [temporary duty] location.”

        SEC Travel Policy, Question 92: “You need to file your travel claim within
        five days of completing your travel….”

Memoranda From the SEC’s Chief Financial Officer to SEC Employees

               Required Expense Report Filing Within 5 days for All SEC
                Employees, February 28, 2011. Reminds SEC staff that
                the FTR and SEC Travel Policy requires that travel expense
                reports are required to be submitted within five working days
                after trip completion.

               Redefining the Local Travel Area Policy for All SEC
                Employees, February 16, 2011. Defines the SEC local travel
                area.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 31
                                                                                   Appendix III


Interagency Agreement Between the United States Agency for International
Development and the United States Securities and Exchange Commission.
Provides for certain overseas technical assistance and training that is conducted
by OIA and is funded by USAID.

Federal Workforce Flexibility Act of 2004, Public Law 108-411 (October 30,
2004). Authorizes compensatory time off for time in travel status away from the
employee’s official duty station outside of normal working hours.

Securities and Exchange Commission Human Capital Directives and
Procedures, July 13, 2005 and Revised May 9, 2006 (Issued by SEC’s Office
of Human Resources). Provides policy and procedural guidance to SEC
employees on earning and using compensatory time for travel.

International Travel site on the SEC Insider internal website. Provides
guidance to SEC employees on international travel in various sections:
International Travel Overview, International Travel Guide, International Travel
Guidelines, Forms, and Useful Links.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 32
                                                                                   Appendix IV


                        List of Recommendations

Recommendation 1:

The Office of International Affairs (OIA) should develop and implement written
procedures for travel coordination and review responsibilities. The procedures
should cover OIA’s internal duties and responsibilities and coordination with the
Office of the Chief Operating Officer, the U.S. Department of State, and
Commission international travelers.

Recommendation 2:

The Office of International Affairs and the Office of the Chief Operating Officer
should periodically issue an SEC Administrative Notice or SEC Today reminder
to Commission staff informing them of their requirement to prepare the Foreign
Travel Memorandum (FTM) at least two weeks before the travel date and to
provide the required supporting documents (e.g., flight itinerary, daily itinerary,
and program agenda) with the FTM.

Recommendation 3:

The Office of International Affairs (OIA) and the Office of the Chief Operating
Officer should revise the Foreign Travel Memorandum (FTM) to include a
statement on the FTM indicating when it must be submitted to OIA and a reason
or justification for late submissions.

Recommendation 4:

The Office of International Affairs and the Office of the Chief Operating Officer
should establish controls to ensure that the Foreign Travel Memorandum
contains all supporting documents prior to submitting it to the Office of the Chief
Operating Officer for approval.

Recommendation 5:

The Office of International Affairs should forward granted country clearances to
Commission staff prior to their departure on official international travel and
request staff maintain the document while on travel status.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 33
                                                                                   Appendix IV


Recommendation 6:

The Office of International Affairs in coordination with the Office of the Chief
Operating Officer should revise the Foreign Travel Memorandum to include a
justification section. The justification should provide a clear explanation as to
why and how the trip benefits the Commission and should indicate that the trip is
warranted.

Recommendation 7:

The Office of International Affairs should establish procedures and periodically
provide training to its staff on the proper application of Federal travel regulations
and Commission travel policies in: trip planning, preparing expense reports, and
in determining and recording compensatory time for travel.

Recommendation 8:

Office of International Affairs should periodically remind staff about the
requirement to submit expense reports within five working days after completion
of travel to the Office of Financial Management.

Recommendation 9:

The Office of International Affairs should ensure its timekeeper records
compensatory time for travel in the pay period that the hours are earned.

Recommendation 10:

The Office of International Affairs and the Office of the Chief Operating Officer
should coordinate with appropriate Securities and Exchange (SEC) offices and
review the guidance located on the SEC Insider related to the SEC’s international
travel processes and procedures, and regularly updates this information as
needed.




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 34
                                                                                   Appendix V


                         Management Comments




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 35
                                                                                   Appendix V




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 36
                                                                                   Appendix V




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 37
                                                                                   Appendix V




The Office of International Affairs Internal Operations and Travel Oversight   September 30, 2012
Report No. 508
                                            Page 38
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General for Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, or mismanagement at the SEC,
      contact the Office of Inspector General at:

              Phone: 877.442.0854

              Web-based Hotline Complaint Form:
              www.reportlineweb.com/sec_oig
